osh+lx)
ai

a

Case Number

mMmem

£<®m&w

LECIAL. SHORTER
Objector, Class Member and Petitioner
v.

MARY AMADOR, ET AL,
Plaintiffs Individually and as Class Representatives and Respondents
v.

LEROY BACA, COUNTY OF LOS ANGELES AND LOS ANGELES COUNTY
SHERIFF’S DEPARTMENT,
Defendants and Respondents
On Petition for Writ of Certiorari from the Ninth Circuit Court of Appeals and
from the United States District . Court for the Central District of California, Case
No. 2:10-CV-01649-S VW
District Court Judge Stephen V. Wilson

Lecia L. Shorter
287 S. Robertson Blvd., No. 291
Beverly Hills, CA 90211
(310)869-5838

RECEIVED
JUN 15 M21

Petitioner in Pro Per
1

/

u

QUESTIONS PRESENTED
1) What are the collateral attack options of an unnamed class member to
challenge the classifications and due process violations in a $53 million
civil rights class action settlement involving female inmates and the
County of Los Angeles regarding unconstitutional body cavity and strip
searches?
2) Whether an unnamed class member, after opting out of a Rule 23(b)(2)
class action settlement, has standing to 1) seek collateral review by way
of appeal of a class action settlement for Phillips Petroleum Co. v. Shutts,
472 U.S. 797 (1985) due process violations; or, 2) intervene for purposes
of appeal on the grounds of due process violations.
3) Whether the District Court Monelle liability summary judgment for
monetary damages according to a points-based distribution formula with
unknown variables for individual class member pay-outs and the inability
to challenge the appropriateness of the calculations is sufficient to satisfy
the Rule 23 due process requirement of “adequate representation.” In
other words, did the absent class members have sufficient information
about the damages calculations to make an informed decision about
whether to be bound by the judgment, or opt out?
4) Whether the class certifications of 94,000 female inmates pursuant to
Rule 23(b)(2) and Rule 23(c)(4) adequately protected the interests of the
absent class members or were additional sub-classes required for a more
appropriate manner of ensuring an equitable distribution of the $53
million settlement fund
5) Whether the arbitrary and capricious denial of an IFP motion to appeal
the order approving the class action settlement or intervene, amounts to a
denial of access to justice and the equal protection of the laws of the
United States in violation of the Fifth Amendment right to Due Process.

2

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

RELATED CASE

Shorter v. Baca, etal. (9th Cir. 2018) 895 F.3d 1176

3

TABLE OF CONTENTS
I. OPINIONS BELOW

5

II. INDEX OF APPENDICES

7

III. JURISDICTION.

8

IV. TABLE OF AUTHORITIES

9

V. CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.....11
VI. STATEMENT OF THE CASE

13

W. REASONS FOR GRANTING THE WRIT

.29

A. THE L.A. COUNTY $53 MILLION CLASS ACTION SETTLEMENT
PROVIDES THIS COURT AN OPPORTUNITY TO SETTLE
NUMEROUS UNRESOLVED DUE PROCESS CONCERNS
REGARDING THE MANAGEMENT AND ADMINISTRATION OF
RULE 23(b)(2) AND 23(c)(4) CLASS ACTIONS PARTICULARLY AS
TO NOTICE, CLASSIFICATIONS, ADEQUATE REPRESENTATION,
CLASS MEMBER RIGHTS AND COLLATERAL ATTACKS

38

VIII. CONCLUSION

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
Dispositive Orders of the Ninth Circuit Court of Appeals and the District Court for
the Central District of California class action orders and judgment below.
I.
OPINIONS BELOW
1. The Dispositive Orders of the United States Ninth Circuit Court of
Appeals dated February 12, 2021 appear at Appendix A and B to the
petition and are unpublished and reported in the docket of the Ninth
Circuit Electronic Court Filings for Case Nos. 20-55965 and 20-562878
at Nos. 496 and 497.
2. The Ninth Circuit Mandates dated March 8, 2021 appear at Appendix C
and D to the petition and are unpublished and reported in the docket of
the Ninth Circuit Electronic Court filings for Case Nos. 20-55965 and 2056278 at Nos. 499 and 500.
3. The Ninth Circuit Clerk Order dated December 16, 2020 for Case No.
20-56278 appears at Appendix E to the petition and is unpublished for
Case No. 20-56278 at Dkt Entry No. 2.
4. United States District Court for the Central District of California Order
Denying Motion to Intervene dated October 29, 2020 appears at
Appendix F to the petition and is unpublished and reported in the docket
of the Ninth Circuit Electronic Court filings for Case No. 2:10-cv-01649
at No. 486.
5. United States District Court for the Central District of California Order
Denying IFP Motion dated September 21,2020 appears at Appendix G to
the petition and is unpublished and reported in the docket of the CACD
Electronic Court filings for Case No. 2:10-cv-01649 at No. 473.
5

6. United States District Court for the Central District of California Order
Granting Motion for Final Approval of Class Action Settlement and
Granting in Part Motion for Attorney’s Fees dated August 11, 2020
appears at Appendix H to the petition and is unpublished and reported in
the docket of the CACD Electronic Court filings for Case No. 2:10-cv01649 at No. 463.
7. United States District Court Order Granting Plaintiffs Motion for
Summary Judgment and Order Granting in Part and Denying in Part
Defendants’ Motion for Summary Judgment dated June 7, 2017 appears
at Appendix I to the petition and is unpublished and reported at 2017 WL
9472901 for Case No. 2:10-cv-01649.

6

II.
INDEX TO APPENDICES

APPENDIX A - Dispositive Order of the United States Ninth Circuit Court of
Appeals dated February 12, 2021 - Case Nos. 20-55965 and 20-562878
APPENDIX B - Dispositive Order of the United States Ninth Circuit Court of
Appeals dated February 12, 2021 - Case Nos. 20-562878
APPENDIX C- Ninth Circuit Mandates dated March 8, 2021 - Case No. 20-55965
APPENDIX D - Ninth Circuit Mandates dated March 8, 2021 - Case No. 2056278
APPENDIX E - Ninth Circuit Clerk Order dated December 16,2020 for Case No.
20-56278
APPENDIX F - United States District Court for the Central District of California
Order Denying Motion to Intervene dated October 29, 2020.
APPENDIX G - United States District Court for the Central District of California
Order Denying IFP Motion dated September 21, 2020.
APPENDIX H - United States District Court for the Central District of California
Order Granting Motion for Final Approval of Class Action Settlement and
Granting in Part Motion for Attorney’s Fees dated August 11, 2020.
APPENDIX I - United States District Court Order Granting Plaintiff s Motion for
Summary Judgment and Order Granting in Part and Denying in Part Defendants’
Motion for Summary Judgment dated June 7, 2017.

7

in.
JURISDICTION
The Ninth Circuit Court of Appeals issued two (2) dispositive orders
dismissing Petitioner’s appeal from the District Court Orders denying a motion to
intervene and a motion to proceed informa pauperis for lack of standing on
February 12, 2021. No timely motion timely petition for rehearing was filed.
Mandates were issued on March 8, 2021. The jurisdiction of this Court is invoked
under 28 U. S. C. §1254(1).

8

IV.
TABLE OF AUTHORITIES
FEDERAL CASES
Amador, etal. v. Baca, etal, No. CV 10-01649-SVW-JEM, 2017 WL 12878313
15
(C.D. Cal. 2012)
Amador, etal. v. Baca, etal., No. 10-CV-1649-SVW, 2016 WL 8904537 (C.D. Cal.
2014)......................... ............................................................................................ 14
Amador, et al. v. Baca, et al., No. 10-CV-1649-SVW, 2016 WL 68049100 (C.D.
Cal. 2016) .............................................................................................................. 14
Amador, etal. v. Baca, etal., No. CV 10-01649-SVW-JEM, 2017 WL 9472901
13,14
(C.D. Cal. June 7, 2017)
Amador, et al. v. Baca, et al., No. 10-CV-1649-SVW, 2016 WL 8904537 (C.D.
14
Cal. Nov. 18,2016)...............................................
Besinga v. U.S. (9th Cir. 1989) 923 F.2d 133.........

12

Bolling v. Sharpe (1954) 347 U.S. 497.................

12

Eisenv. Carlisle Jacquelin (1974) 417 U.S. 156...

30

Epstein v. MCA, Inc. (9th Cir. 1999) 179 F.3d 641

36, 37

Florence v. Board of Chosen Freeholders ofthe County ofBurlington (2012) 132
15
U.S.1510

30

Hansberry v. Lee (1940) 311 U.S. 32

In re First Capital Holdings Corp. Fin. Prods. Secs. Litig. (9th Cir. 1994) 33 F.3d
.27
29
Mullane v. Central Hanover Bank Trust Co. (1950) 339 U.S. 306

30

Phillips Petroleum v. Shutts (1985) 472 U.S. 797......................... 19, 30, 32, 36, 37
Powers v. Eichen (9th Cir. 2000) 229 F.3d 1249...........................
9

28

Shorter v. Baca, et al (9th Cir. 2108) 695 F.3d 1176

18,22,31,32

Truax v. Corrigan (1921) 257 U.S. 312....................

11

Wal-Mart Stores, Inc. v. Dukes (2011) 131 S. Ct. 2541

35

STATUTES
28 U.S.C. §22.........

30

28 U.S.C. §23.2.......

30

28 U. S. C. §1254(1)

8

42 U.S.C. §1983 .....

13

FEDERAL RULES
12,30

Federal Rule of Civil Procedure 23
Federal Rule of Civil Procedure 23(b)(2)

12, 16, 30

Federal Rule of Civil Procedure 23(b)(3)

11, 16

Federal Rule of Civil Procedure 23(c)(4).

12, 16, 17, 22, 30

10

V.
CONSTITUTIONAL AND STATUTORY PROVISIONS

The Fifth Amendment’s Due Process Clause requires the United States
government to practice equal protection of the laws, thereby prohibiting arbitrary,
capricious, and unjustifiable rulings that are discriminatory and designed to impede
access to justice. According to Chief Justice Taft, the Due Process and Equal
Protection Clauses are associated and that they overlap, such that a violation of one
may involve at times the violation of the other, but the spheres of the protection
they offer are not coterminous... Due process tends to secure equality of law in
the sense that it makes a required minimum of protection for every one’s right of
life, liberty and property, which the Congress or the legislature may not withhold.
Our whole system of law is predicated on the general, fundamental principle of
equality of application of the law.” Truax v. Corrigan (1921) 257 U.S. 312, 331.
Absent class members in a Rule 23(b)(3) class action have property interests in the
monetary damages that require the invocation of principles of due process and
equal protection.
Although the Fifth Amendment does not contain an equal protection clause
as does the Fourteenth Amendment, the concepts of equal protection and due
process, both stemming from our American ideal of fairness, are not mutually
11

exclusive. The ‘equal protection of the laws’ is a more explicit safeguard of
prohibited unfairness than ‘due process of law,’ and, therefore, we do not imply
that the two are always interchangeable phrases. But, as this Court has recognized,
discrimination may be so unjustifiable as to be violative of due process. Bolling v.
Sharpe (1954) 347 U.S. 497 at 499. To live up to its ideals ofjustice, federal
sovereigns must govern impartially.
Rule 23 is the due process vehicle to which class actions are subject. The
Ninth Circuit has even acknowledged that “Rule 23 speaks to notice as well as to
adequacy of representation and requires that both be provided ...” Besinga v.
U.S., 923 F.2d 133, 137 n.6 (9th Cir. 1989). What the Ninth Circuit has not
decided in the context of class actions is when are notice and adequate
representation sufficient to satisfy due process concerns in Rule 23(b)(3) class
certifications where individual monetary damages are at issue. This is separate and
distinct from how to determine when a Rule 23(b)(2) along with 23(c)(4) sub-class
certifications to provide adequate representation to absent class members when the
damages are vast and varied. Once those issues are clarified, the pressing question
which requires clarification in all circuits is whether an absent class member can
collaterally attack a class action settlement via an appeal, an independent action or
intervention on the grounds of inadequate notice and inadequate representation
resulting in due process violations.
12

VI.
STATEMENT OF THE CASE
On March 5, 2010, two female former inmates who were imprisoned in the
Century Regional Detention Facility ("CRDF"), a Los Angeles County Sheriffs
Department ("LASD") facility, filed a class action lawsuit in the United States
District Court for the Central District of California. Represented by a civil rights
law firm, the plaintiffs sued the LASD under 42 U.S.C. §1983. Amador v. Baca
U.S.D.C. Case No. 2:10-cv-01649). The plaintiffs alleged violations of their
Fourth, Eight, and Fourteenth Amendment rights, as well as their equivalents under
the California Constitution. Specifically, plaintiffs claimed that CRDF female
inmates were routinely subjected to degrading strip and body cavity searches at the
CRDF without probable cause or individualized suspicion.
While in the custody of LASD, female inmates were required to publicly
identify themselves and remove their tampons or pads in view of other detainees,
and before completing the visual-body cavity inspection, which often caused them
bleed on themselves or the ground... LASD’s practice of searching women
outside in cold weather conditions. Because the inmates were wearing no clothing,
shoes or socks, the air temperature would often have felt as though it were in the
40’s or 50’s... practices used during the first several years of the class, including
the requirements that women: (1) face each (other) sic undressed, with bare breasts
13

and underwear pulled to their knees, while performing various steps in the search
process (including inspection of the area under their breasts and stomachs and
inspection of their mouths); and (2) that two parallel lines simultaneously complete
the visual body cavity inspection by bending over and looking through their legs
while deputies inspect their rectum and vagina, one-by-one, during which time
they could not avoid seeing similarly positioned women on the opposite wall.”
There would often be name calling, humiliating body references and other
inappropriate behavior by LASD personnel during the search process. [2017 WL
9472901].
According to Class Counsel, “over the class period (2008-2015), more than
94,000 class members were subjected to extremely invasive visual body cavity
inspections in large group settings with virtually no privacy protections. See
Amador, et al. v. Baca, et al., No. CV 10-01649-SVW-JEM, 2017 WL 9472901
(C.D. Cal. June 7, 2017) (hereinafter “MSJ Order”) (granting Plaintiffs’ motion for
summary judgment), Appendix I; Amador, et al. v. Baca, et al., No. 10-CV-1649SVW, 2016 WL 8904537 (C.D. Cal. Nov. 18, 2016) (hereinafter “Class Cert.
Order”) (finally certifying several classes and subclasses).” 25,628 of the 40,000
received claims were approved at the time of the final order.
On October 22, 2010, the plaintiffs filed a motion to certify class. On
February 28, 2011, the LASD moved to dismiss the case, claiming that the
14

plaintiffs had failed to exhaust their claims as required by the Prison Litigation
Reform Act ("PLRA"). The complaint was amended on January 28, 2011, to add
five additional former and current CRDF inmates as named plaintiffs. However, on
December 27, 2011, District Judge Stephen V. Wilson moved the case to the
inactive calendar, pending the U.S. Supreme Court's decision in Florence v. Board
of Chosen Freeholders ofthe County of Burlington, 132 U.S. 1510 (2012), another
case involving strip searches, which Judge Wilson believed could affect the
viability of relevant precedent.
On April 2,2012, the Supreme Court issued a ruling in Florence that if a
prisoner was about to be housed in a jail's general population, no individualized
suspicion was required for strip searches, no matter how minor the arrest offense.
Following this decision, on December 19, 2012, Judge Wilson issued an order
moving the case back to the active calendar. In addition, Judge Wilson denied the
defendant's motion to dismiss, finding that the LASD did not demonstrate
sufficient grievance procedures as required by the PLRA. Judge Wilson also
determined that the court would rule on the plaintiffs' motion to certify class after
the defendants filed their motion for summary judgment. 2012 WL 12878313, C.D.
Cal. However, on January 9, 2013, after the plaintiffs requested the court
reconsider its decision to defer ruling on the pending motion to certify class, Judge

15

V

Wilson issued a new order allowing the plaintiffs to re-file their motion to certify
class given the evidence gathered during discovery.
On June 10, 2013, the plaintiffs re-filed their motion to certify class. On
March 12, 2014, Judge Wilson granted plaintiffs request for class certification
under Fed. R. Civ. P. 23(b)(2) denying their request for class certification under
Rule 23(b)(3) (299 F.R.D. 618). The court also allowed plaintiffs to file a renewed
motion to certify a damages class on the issue on liability pursuant to Rule
23(c)(4).
On May 19, 2014, the plaintiffs filed a renewed motion to certify the class,
requesting that the court certify a Rule 23(c)(4) liability class. In addition, the
plaintiffs requested that the court reconsider its denial of the plaintiffs' request for
Rule 23(b)(3) class certification. As an alternative to this Rule 23(b)(3)
reconsideration, the plaintiffs requested that the court certify subclasses under Rule
23(c)(4) on the basis of differing conditions of abuse, privacy, sanitation, and
weather during the alleged illegal strip searches. On December 18, 2014, Judge
Wilson issued an order granting a Rule 23(c)(4) issue class for the purpose of
liability, as well as subclass certification. However, the court denied the plaintiffs'
request for Rule 23(b)(3) class certification and all other subclass certifications.
2014 WL 10044904.

16

On November 18, 2016 (2016 WL 8904537, C.D. Cal.), the court certified
an additional two classes as (c)(4) issue classes, despite not certifying the (c)(4)
classes in a July 26, 2016 order (2016 WL 6804910, C.D.Cal.). These new classes
consisted of a class consisting of women who experienced simultaneous searches
and a class consisting of women who experienced one-line-at-a-time searches.
2016 WL 8904537, C.D. Cal.
The plaintiffs filed a third amended complaint on December 2, 2016, and a
fourth amended complaint on December 19.
On June 7, 2017, the court issued an order regarding summary judgment
motions from both parties. The court granted the defendants' motion, dismissing
claims of liability against individual defendants acting as individuals due to
qualified immunity. The court also granted the plaintiffs motion, finding that
because the defendants had not provided evidence establishing why they conducted
searches in the humiliating and undignified manner that they did when less
intrusive and readily available alternatives existed, the plaintiffs' Fourth
Amendment rights were violated. 2017 WL 9472901, C.D. Cal.
The parties then engaged in mediation. The Class Representatives submitted
a preliminary settlement agreement for $53 million on July 16, 2019. At that time,
Class Counsel was aware of Petitioner’s independent action, Shorter v. Baca, et al.
17

2:12-cv-07337 and 695 F.3d 1176 (9th Cir. 2018), against nearly identical
defendants claiming nearly identical Constitutional violations particularly as to the
body cavity searches. Petitioner was informed by Class Counsel that the Ninth
Circuit decision in Shorter v. Baca served as the impetus for the County’s
willingness to settle the class action. Notwithstanding, neither Class Counsel or
the Class Administrator 1) notified Petitioner of the class action lawsuit, 2) never
related the cases per Local Rule 83-1.3.1-1.3.4, and 3) never notified Petitioner of
the class certification or the class settlement, which was finalized on July 15, 2019,
the same day the District Court in Shorter v. Baca issued a tentative order denying
her Motion for Judgment as a Matter of Law or in the alternative, Motion for a
New Trial as to the second trial following the Ninth Circuit decision. Petitioner
learned of the class action by media pronouncements days after the settlement
agreement was reached.
Petitioner independently learned of the class action and interjected
objections to the preliminary settlement in March of 2019. Judge Wilson denied
approval of the preliminary settlement in a September 23, 2019 hearing. His
objection to the settlement centered on the creation of a $3 million fund to finance
contracts with Los Angeles-based nonprofit organizations and for-profit groups to
“develop a strengthened model of gender-responsive policy and operational
practice at all LASD facilities that house female inmates.” He said that since there
18

was a potential for many claimants to come forward demanding compensation in
this case, such a fund should not be established unless there is money left over
once all members of the class seeking compensation come forward.
Petitioner asked the District Court to appoint independent counsel to clarify
ambiguities related to the settlement and apprise Class Members of their legal
rights and an auditor to oversee the disbursement process. Dkt. No. 429.
Specifically, Petitioner objected to the inadequate representation of Class Counsel
and the Class Representatives as well as the settlement itself. Petitioner argued
that Class Counsel provided no meaningful vehicle for class members to object to
the preliminary settlement in a manner that is procedurally proper. Petitioner also
informed the Court that the notice on the Administrator’s website was
Constitutionally deficient because it did meet the requirement of Phillips
Petroleum v. Shutts (1985) 472 U.S. 797 because neither the text, email or internet
notices provided Class Members an opt out form to execute and return to the court.
Petitioner also referenced the confusing nature of the internet notice in that Class
Members were told to notify the Administrator of their decision to opt out while
simultaneously telling Class Members they were to communicate with the Court.
Thereafter, Class Counsel unilaterally requested that all communications to the
court be intercepted and given to him despite the Settlement Notice instructing
Class Members to independently communicate with the Court their objections and
19

their desire to opt out. ECF Dkt. No. 429, p. 6. Class members responded with
handwritten letters to the court which were either diverted to class counsel with no
accountability or held by Judge Wilson. ECF Dkt. No. 450. Class Members were
provided no lawful means to opt out.
Substantively, Petitioner claimed due process violations based on the
inadequate representation of Class Counsel and the Class Representatives. First,
based on the representation of Class Counsel the average payout for individual
class members will range from $200 to $1500 compared to the near $13.8 million
in attorney fees awarded to Class Counsel. Second, Class Members, Petitioner
included, were not provided sufficient information to make an informed decision
about accepting the settlement or proceeding with the more arduous choice of
litigating their individual claims particularly as to the point calculation and
distribution formula which determine the individual pay outs. At the time of the
final order approving the settlement, the claims process was closed and there was
no reason Class Members could not be informed of the amount they are expected
to receive so they could make an informed decision on whether that amount is
sufficient to release and waive all claims against Defendants and be bound by the
judgment.
After the claims cut-off date passed, neither Class Counsel nor the Claims
Administrator disclosed the final formula calculations or the amount of
20

compensation each Class Member will receive, and Class Members cannot
challenge the amount of compensation. The Settlement Administrator informed
inquiring Class Members that “[fjor the purposes of the Settlement, the number of
points will be based exclusively on the records of the Los Angeles Sheriffs
Department. This means that if the Court grants Final Approval to the Settlement,
benefits calculations will be based off of the searches identified through the
County’s records and cannot be challenged. The calculation of points determining
your award will not be provided with your payment.”
According to Class Counsel, “it would significantly dilute the class fund,
and delay class payment, to require a (sic) second round of notice advising class
members of the precise amount of their settlement payment (which would still not
be known at that point due to yet undetermined administrative and attorney’s fee
costs).” The District Court agreed and rejected Petitioner’s request for
independent counsel and an auditor to oversee the distribution of payments. [Final
Order, Appendix H].
Third, some Class Members and individuals who did not qualify to be in the
class expressed concerns that Constitutional violations beyond the scope of the
settlement were not addressed. For instance, if an individual was arrested during
the relevant time period, and endured the bus bay body cavity searches, they may
also have experienced constitutional violations e.g. rape, physical abuse,
21

psychological torment, inadequate medical care as well as meal, recreation and
sanitation deprivations. There is no meaningful explanation as to why the District
Court did not allow additional Rule 23(c)(4) sub-classes for those type of
Constitutional violations during the relevant period.
It is well established that the L.A. Sheriffs have consistently abused their
authority with an ongoing pattern of violence, sexual assault, and abuses of power
against women, amounting to gross and inhumane civil rights abuses. See Shorter
v. Baca (9th Cir. 2018) 895 F.3d 1176. Their actions over the years have been
officially renounced by the Department of Justice, the ACLU, the Citizens
Commission Against Jail Violence and most recently by the Governor of the State
of California in his enactment of AB 1185. The Ninth Circuit should have taken
the opportunity to review whether the settlement adequately compensated the
violations endured by women who had the unfortunate experience of being in the
custody of LASD. This is a question of what constitutes adequate representation
by the Class Representatives and Class Counsel according to constitutional due
process mandates. A due process analysis that is far overdue.
The plaintiffs submitted an amended settlement agreement for the same
amount but appearing to remove the Cy Pres fund. On October 31, 2019. Judge
Wilson granted preliminary approval to the settlement on November 7, and set a
fairness hearing for July 20, 2020, once class members could reasonably be
22

notified. Due to COVID restrictions, class members were not allowed to attend the
fairness hearing. It was held telephonically and only class counsel and counsel for
defendants were allowed to appear.
Finally, Petitioner asked the District Court to consider the feasibility of
going to trial particularly where the only issue would be general, special, and
punitive damages given that Monelle liability was established via summary
judgment. Class Counsel had already conceded the difficulties in suing the County
of Los Angeles: “the practical reality for both this court and most class members is
that there will be substantial barriers and delays to individualized trials.” ECF Dkt
No. 363, p. 6, lines 4-9. Subsequently, in a self-serving juxtaposition, Class
Counsel contended, “[ajlthough a class has been certified here, like the situation
where no class has been certified, the settlement here has no “preclusive effect” on
Ms. Shorter, and she “retain[s] the ability to file [her] own suit[], and hence, [her]
interests are unlikely to even be ‘practically’ impaired.” [ECF Dkt No. 480, p. 9,
lines 24-27]. i

1 Petitioner was of the opinion that she should not have to file an independent lawsuit considering the summary
judgment decision in this matter and requested clarification from die District Court in that regard. In her opinion, it
seemed more appropriate for the Court to hold a status conference for all persons who opted out of the settlement,
order Defendants to provide any and all necessary information pertaining to their individual claims and set the
matter for trial on the issue of general, special and punitive damages. Petitioner has since filed an independent
lawsuit and related Amador v. Baca. Judge Stephen Wilson denied transfer stating ““Plaintiffs complaint in 2:21cv-03347 primarily describes a single 2013 arrest that was not at issue in Solis v. Baca (2:06-cv-01135) or Amador
v. Baca (2:10-cv-01649). Plaintiff opted out of the settlement in Amador v. Baca (Dkt. 465), which concerned strip
searches at CRDF. While Plaintiff alleges she was also subject to strip searches, the new lawsuit is unlikely to raise
similar factual or legal questions. Transfer would thus not promote judicial economy.” [Dkt No. 6],

23

On August 17,2020, Judge Stephen Wilson of the United States District
Court for the Central District of California entered a final order approving a $53
million class action settlement between the County of Los Angeles and 9 Class
Representatives on behalf of over 94,000 female inmates.
The revised Settlement Agreement requires LASD to pay a total of $53
million dollars into a settlement fund over a period of three years. ECF Dkt. 39511 (“the Settlement Agreement”). The distribution of funds provided in the
Settlement Agreement includes:
□ Incentive awards to nine named plaintiffs of $10,000 each.
□ Third-party class settlement administration costs by the chosen
administrator, JND Legal Administration (“JND”), which are currently
$672,185.96 based on incurred and estimated fees associated with administration
of settlement claims. See ECF Dkt. 451 at 7-8.
□ A provision giving Class Counsel the right to apply for attorney’s fees of
up to one-third of the Class Fund as well as litigation costs, with final approval
over any award of attorney’s fees at the Court’s discretion.
□ The remainder of the Class Fund to be distributed to class members under
a points-based allocation formula

24

The Class includes a total of 94,857 members, based on the contact
information available to the parties and JND from the County’s records. 25,548
claims were approved. Claims made by class members are subject to a pointsbased distribution formula. “The distribution formula developed in the course of
mediation by the parties is premised on the changing conditions and level of
privacy across the multiyear class period. It allocates increasing point totals for
searches endured under worse conditions during earlier periods in the class. Class
members receive proportionate recoveries.” [Final Order, p. 2, Appendix H]
Even though the District Court disapproved the Cy Pres Fund in the
preliminary settlement agreement and the court rejected an assigned auditor, the
final Settlement Agreement still allows uncashed funds remaining in the Class
Fund to be allocated to nebulous unidentified organizations/programs as opposed
to being distributed to the Class Members:
Any SCM funds not cashed within one year of a check’s initial
mailing shall be voided, and those funds (“Uncashed Funds”) shall be
(sic) held for the next round of payments. Where an SCM’s check was
not cashed within that one-year period, that SCM shall be eliminated
as a qualifying Class Member, and that SCM’s past and future funds
shall become part of the fund for future distribution to Class
Members, and allocated to the remaining SCM’s during the next
25

round of payments according to the Class Damages Allocation
Formula contained in Section IV. Uncashed funds remaining in the
Class Fund one year after the third round of payments shall be given
as a donation to the Cy Pres Fund (see 130), to be allocated equally
among the qualifying organizations/programs. [Settlement
Agreement, 154, f55].
Because of the inadequate representation of Class Counsel and the Class
Representatives, Petitioner chose to opt out and informed the court that she wanted
to retain her status as a class member to independently avail herself of the Monelle
liability summary judgment determination for monetary damages. The District
Court therefore deemed Petitioner no longer a class member and determined that
she did not have standing to object. The District Court then ruled that he would
consider Petitioner’s objections amicus objections.
All objections by Petitioner and other Class Members were discounted by
the District Court. In fact, the District Court stated he did not find Petitioner’s
objections and requests for full disclosure of individual payout information,
independent counsel, and the appointment of an auditor to be compelling, he
District Court found that 1) Class Members adequately represented the class; 2) the
settlement was negotiated at arm’s length; 3) the relief provided for the class is
adequate; 4) class members are treated equitably; and 5) settlement approval is
26

favored because the County is a party to this settlement and supports the proposed
settlement. And the reaction of the class supports approval of the settlement—
more than 40,000 claims have been submitted, approximately 30,000 will be
approved given JND’s projections, and only twelve individuals (setting aside
standing issues that may further reduce that number) have expressed objections to
the settlement agreement. [Final Order, p. 8, Appendix H]. The District Court
awarded Class Counsel $13.6 million in attorney fees and costs.
On September 10, 2020, Petitioner filed a notice of appeal of the judgment
to the Ninth Circuit. She also filed a motion to proceed informa pauperis. On
September 21,2020, acknowledge there exists no Ninth Circuit precedent on the
issue, the District Court denied the IFP motion on the grounds that Petitioner lack
standing to appeal because she opted out of the settlement. See Order Denying IFP
Motion, Appendix G.
On October 1, 2010, Class Counsel filed a motion to dismiss the appeal
before the Ninth Circuit contending Petitioner lacked standing to appeal the
judgment because she chose to opt out. Class Counsel and the District concede
there is no Ninth Circuit precedent or U.S. Supreme Court precedent specifically
addressing this issue. The District Court cited these cases (as well as In re First
Capital Holdings Corp. Fin. Prods. Secs. Litig., 33 F.3d 29, 30 (9th Cir. 1994)) in
concluding that, “[although the Ninth Circuit has no case standing for this precise
27

proposition, that Shorter lacks standing to appeal is an obvious and unavoidable
application of its [standing] precedents.” IFP Order (Ex. 2) at 2, Appendix G.
Petitioner relied upon the Ninth Circuit decision in Powers v. Eichen (9th
Cir. 2000) 229 F.3d 1249 for the premise that she has Article III standing because
of the Monelle liability summary judgment determination and because she
“personally has suffered some actual or threatened injury as a result of the
putatively illegal conduct of the defendant, and that the injury fairly can be traced
to the challenged action and is likely to be redressed by a favorable decision.” A
class member should not be forced to choose between opting out and filing an
independent lawsuit where Class Counsel and Class Representatives have not
adequately represented the interests of all class members.
On October 29, 2020, the District Court denied Petitioner’s Motion to
Intervene. The District Court asserted that Petitioner did not have Article III
standing to intervene as of right or permissively. [See Order, Appendix F].
On February 12,2021, the Ninth Circuit summarily granted Class Counsel’s
motion to dismiss for lack of jurisdiction based on the standing argument. [See,
Dispositive Order, Appendix A.]

28

Also on February 12, 2021, the Ninth Circuit summarily dismissed
Petitioner’s appeal of the District Court Order Denying Motion to Intervene on the
grounds that the appeal is frivolous. [See Dispositive Order, Appendix B].

VII.
REASONS FOR GRANTING THE PETITION
A. THE L.A. COUNTY $53 MILLION CLASS ACTION SETTLEMENT
PROVIDES THIS COURT AN OPPORTUNITY TO SETTLE
NUMEROUS UNRESOLVED DUE PROCESS CONCERNS
REGARDING THE MANAGEMENT AND ADMINISTRATION OF
RULE 23(b)(2) AND 23(c)(4) CLASS ACTIONS PARTICULARLY AS
TO NOTICE, CLASSIFICATIONS, ADEQUATE REPRESENTATION,
CLASS MEMBER RIGHTS, CY PRES FUNDS, AND COLLATERAL
ATTACKS

The due process requirements of Phillips Petroleum v. Shutts (1985) 472 U.S.
797 are not optional, particularly as to notice and adequate representation. The due
process requirements were not satisfied in this case. Notice allows class members
to monitor the litigation and intervene if necessary. It is therefore a denial of
access to justice to prevent an absent class member who was not allowed to
monitor the litigation or intervene, the ability to appeal the final order of approval
of a $53 million class action settlement or intervene. Article III standing should
not be lost where there has not been adequate representation and class members are
29

forced to choose between being bound by an unjust judgment and independently
litigating their individual claims.
The Advisory Committee's Note to Rule 23 makes clear that notice pursuant
to subdivision (c)(2) is "not merely discretionary." The Note further explains that
this "mandatory notice ... is designed to fulfill requirements of due procedure to
which the class action procedure is of course subject." 28 U.S.C.A. Rules 22 to
23.2, p. 57 (citing Hansberry v. Lee, 311 U.S. 32, 61 S.Ct. 115, 85 L.Ed. 22
(1940)); Mullane v. Central Hanover Bank Trust Co., 339 U.S. 306, 70 S.Ct. 652,
94 L.Ed. 865 (1950). In Eisen v. Carlisle Jacquelin, 417 U.S. 156, 177, 94 S.Ct.
2140, 2152, 40 L.Ed.2d 732 (1974), the Supreme Court, while sidestepping the
question of whether notice is required to comport with due process, made clear that
"Rule 23(c)(2) requires that individual notice be sent to all class members who can
be identified with reasonable effort." The Court also observed that this notice
requirement "was intended to insure that the judgment, whether favorable or not,
would bind all class members who did not request exclusion from the suit." Id. at
176, 94 S.Ct. at 2152.
In this instance, the District Court made no findings as to the adequacy of the
notice itself and whether the class notice met Constitutional due process mandates
set forth in Rule 23(c)(2). Petitioner informed the District Court that she never
received notice of the class action from class counsel, the class administrator or the
30

class representatives. This, after class counsel acknowledged that the 2018 Ninth
Circuit decision in Shorter v. Baca, et al on the unconstitutionality of humiliating
and intrusive body cavity searches without penal justification, and the existence of
less intrusive means e.g., body scanners or squat and cough was pivotal in the
decision of Los Angeles County to settle the class action. Class Counsel never 1)
notified Petitioner of the class action lawsuit, 2) never related the cases per Local
Rule 83-1.3.1-1.3.4, and 3) never notified Petitioner of the class certification or the
class settlement which was finalized on July 15, 2019, the same day the District
Court in Shorter v. Baca issued a tentative order denying her Motion for Judgment
as a Matter of Law or in the alternative, Motion for a New Trial. This was no
coincidence. Petitioner learned of the class action independent of class counsel or
the class representatives via media announcement days after the settlement
agreement was reached. Petitioner never received any communication whatsoever
from the Class Administrator whether by text, email or first-class mail despite this
Court’s finding that “[o]n January 6, 2020, JND began to send notices alerting
class members to the settlement. The Administrator sent notices via text message
to 58,272 mobile phone number representing 39,567 class members. ECF Dkt. 451
at 2. The Administrator also sent 54,903 emails to 33,229 class members. Id.
Finally, JND sent notices via mail to 71,676 class members.” Final Order, p. 3,
Appendix H. Petitioner was known to Class Counsel for years given Shorter v.
31

Baca, et al. yet she never received notice of the class action so that she could
participate in the litigation or at least monitor the class action. This begs the
question of how many other absent class members were intentionally or
negligently omitted from the notice process. The District Court refused
Petitioner’s request for independent counsel and an auditor on the grounds that it
would delay payment and impose an unnecessary expense. Final Order, p. 11,
(

Appendix H.
In Phillips Petroleum Co. v. Shutts, All U.S. 797 (1985), the Supreme Court
identified three basic due process elements for use of the class device: 1) The class
member “must receive notice plus an opportunity to be heard and participate in the
litigation”; 2) the class member must receive “an opportunity to remove himself
from the class”; and 3) the named plaintiff must “at all times adequately represent
the interests of the absent class members.”
In this instance, all three due process elements were collaterally attacked by
an absent class member who was forced to opt out of the class settlement because
she did not believe the class representatives or class counsel adequately
represented her interests or those of other absent class members. After reviewing
the proposed settlement, Petitioner objected to the terms, requested independent
counsel for uninformed class members, requested to know the final monetary
calculations and availed herself of the opt out provisions to protect her interests
32

when the court refused to adequately address her concerns. She never received an
“opt out” form the class administrator or class counsel which begs the question of
how many other class members never received notice or an “opt out” form.
Communications between absent class members, class counsel and the court
were handled in an ominous manner, leaving room for speculation about whether
the voices of the absent class members were heard, muted, or even considered by
the trial court. As it stands, there is no way to determine the number of opt outs or
the extent of the objections.
The final issue is whether the class members were “adequately” represented
by class counsel and the class representatives given 1) the divergent interests of the
various class members and their experiences while in the custody of the Los
Angeles Sheriffs Department, 2) the formula utilized to provide unspecified
money damages with little to no information of individual calculations combined
with the inability to challenge the formula constitutes “adequate representation” to
satisfy Constitutional due process requirements, and, 3) a potential conflict of
interest with class counsel considering the enormous amount of attorneys versus
monetary payments to class. In its final order, the District Court stated “The Court
also expressly declined to certify a damages class in its prior Orders, and absent a
settlement would have required individualized damages determination in order for
class members to take these claims to trial.” Final Order, p. 11, Appendix H. At a
33

minimum, after the close of the claims period, class members should have been
informed of their individual monetary recovery so they could make an informed
decision about whether to opt out or pursue their respective individual claims.
Was this adequate representation or another form of a due process violation?
Perhaps this Court should clarify whether the failure to certify a damages
class was appropriate as well as whether it is consistent with a Rule 23(b)(2)
classifications and Rule 23(c)(4) issue classifications. The Class Representatives
initially sought monetary remedies and equitable relief. Defendants cure the
wrong with the installation of body scanners. The classification should be
according to the stringent due process requirements of Rule 23(b)(3) as well as a
certification of a damages class.
When Rule 23(c)(4) classifications are utilized, the classifications should be
according to all of the significant issues faced by the affected class members. In
this instance, it was differing conditions of abuse, privacy, sanitation, and weather
during the alleged illegal strip searches. This begs the question of whether the
interests of the class members were adequately protected by the District Court.
The ultimate consideration is whether the District Court adequately
considered the interests of all class members. It is no secret that class actions are
basically a tool for class counsel to become wealthy at the expense of the injured.
34

There is little to no accountable for the class administrator and this case is no
different particularly where the District Court initially declined the ominous “Cy
Pres” fund and then class counsel and defense counsel created a “Cy Pres” fund for
uncashed checks. Again, where is the accountability and where will the funds go?
The Circuits are split on what constitutes “adequate representation” and
whether an unnamed class member who claims due process violations is able to
“opt out” to not be bound by an unfair judgment and then collaterally attack the
judgment for due process violations by way of an appeal or intervention.
The Ninth Circuit clearly favors finality ofjudgments and limits on
collateral attacks although there has been no decisive decision deciding the precise
issue. Absent class members should always have Article III standing to appeal or
intervene in class actions particularly where monetary damages are sought. In this
instance, the Ninth Circuit has no precedent on this issue and used the assertion of
lack of standing as a reason to pass on the opportunity to clarify this unresolved
area of the law.
According to class action expert Megan E. Barriger in her article, Due
Process Limitations on Rule 23(B)(2) Monetary Remedies: Examining the Source
of the Limitation in Wal-Mart Stores, Inc. v. Dukes:

35

As the class device has evolved, courts have struggled to balance the
interests in finality of class judgments with the due process right of
every putative class member to their individual day in court. After
Shutts, courts have disagreed whether challenges based on the basic
due process elements may be raised by collateral attack in a
subsequent proceeding and, if so, how. Most often arising in the
settlement context, many courts have found that a judicial finding of
adequate representation during a fairness hearing in the first
proceeding precludes a later collateral attack on the class judgment in
a second proceeding. This is consistent with the tenet that courts “do
not, of course, judge the propriety of a class certification by
hindsight.” But not all courts agree, with some allowing searching
collateral attacks based on Shutts’ “at all times” language, unless the
challenging class member had been put “on notice” of the alleged
“inadequacy” during the class proceeding. These courts assert that the
“at all times” phrase from Shutts means that the “duty to represent
absent class members adequately is a continuing one.” This tension in
approach culminated in a series of decisions attempting to define
adequate representation, the most seminal of which was the Ninth
Circuit opinion (albeit divided) in Epstein v. MCA, Inc., 179 F.3d 641
36

(9th Cir. 1999), limiting the scope of an individual class member’s
ability to collaterally attack a judgment.
Since Epstein, courts have issued diverging opinions on whether
finality in class judgments trumps allowing class members broad
latitude to collaterally attack judgments. The issue also has attracted
considerable academic consideration.” The question is whether the
collateral court is constrained to a limited review, considering only
whether the class action court utilized adequate procedures to assure
itself that the Shutts due process requirements had been met, or
instead, whether it may engage in a broader, merits-based due process
review. Although a majority of courts have answered this question by
providing for limited collateral review, practitioners should take
precautions to protect their clients’ class action resolutions from
collateral attack in the courts that allow a more probing due process
review.”
In this instance, the Ninth Circuit used a lack of standing as a reason
to prevent Petitioner’s collateral attack as an appellant or an intervenor. This
in and of itself is a denial of the Fifth Amendment right to due process and
equal protection of the laws. A violation that should not be allowed to be
imitated by other circuits as a practice.
37

VIII.
CONCLUSION
Petitioner respectfully requests that this Court consider the profound and
unresolved issues before it and grant the petition for a writ of certiorari.
Respectfully submitted on May 10, 2021,

Lecia L. Shorter
Petitioner In Propia Persona

CERTIFICATE OF COMPLIANCE

I, Lecia Shorter, do hereby certify that this document has a word count of 6,233
words according to the Microsoft Word program utilized in its preparation.

Dated: May 10, 2021
LECIA SHORTER

38

